Semiannual report to the congress   October 2007




                                     U.S. Department of the Interior
                                         Office of Inspector General
Message From the Inspector General




   I am pleased to present the results and accomplishments of the Office of Inspector General
(OIG) from April 1, 2007, through September 30, 2007.

    We finally completed a 3-year-long investigation into the relationship between J. Steven
Griles, former Deputy Secretary of the Department of the Interior (DOI), and convicted lobbyist
Jack Abramoff. In March 2007, Griles pleaded guilty in U.S. District Court for the District of
Columbia to one count of obstruction of proceedings before the U.S. Senate. Griles acknowl-
edged that, contrary to his statement and Senate testimony, Abramoff had enjoyed special access
to him at DOI. He admitted that, during his interview and testimony, he had lied about their
relationship. Griles further admitted in his plea that Abramoff – both directly and through Italia
Federici, former President of the Council of Republicans for Environmental Advocacy – sought
and received advice and intervention on issues within DOI’s jurisdiction that directly affected
Abramoff and his clients. Griles was sentenced to 10 months of incarceration and a fine of
$30,000. He began serving his sentence on September 13, 2007; his release date is July 13, 2008.

    During this reporting period, we also closed two investigations involving qui tam – or false
claims – lawsuits filed by private citizens on behalf of the United States alleging that defendants
defrauded the government. A person who files a qui tam lawsuit may receive between 15 and 30
percent of any money recovered. The OIG, with the Department of Justice (DOJ), intervened in
a qui tam lawsuit filed by a private citizen and investigated widespread underpayment of federal
royalties for the production of natural gas by multiple oil companies on land owned by tribes. The
company settled with the government for over $100 million. This settlement brings the total of
qui tam recoveries in which the OIG has participated to over $600 million from U.S. companies
operating oil, natural gas, coal, and other activities on federal and Indian lands.

     We also investigated the legitimacy of claims made in a series of qui tam lawsuits filed by
MMS auditors against oil companies. The auditors claimed the companies underpaid royalties
and interest owed to the federal government. During our investigation, we found concerns with
MMS’s complex relationship with the energy industry; a profound failure in the development of a
critical IT system module that calculates interest on royalty payments; and a working environment
where poor communication compounded distrust by MMS employees.

    However, we determined that the claims made in the auditors’ qui tam lawsuits were either
based on a lack of knowledge of other MMS efforts to collect royalties and interest or the auditors
disagreed with both MMS management decisions and MMS guidance that the companies were
following.




                           Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
          Also during this reporting period, the OIG Office of Audits issued three flash reports on
      serious safety conditions at abandoned mine sites, Bureau of Indian Education schools, and
      the Jackson National Fish Hatchery. We issue flash reports only when we find conditions so
      unsafe that DOI officials and the public must be immediately informed.

         In addition to the prominent cases we highlight here, we hope all of the accomplishments
      we outline in this Semiannual Report demonstrate our commitment to producing results for the
      American people.




                                                        Earl E. Devaney
                                                        Inspector General




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                                                                    Table of Contents




Table of Contents                                                                                                                               Page
Statistical Highlights.............................................................................................................................ii
OIG Organization Chart.......................................................................................................................iv
Mission and Top Management Challenges...........................................................................................v

Significant Audits, Evaluations,
Assessments, and Investigations
Department of the Interior....................................................................................................................1
Bureau of Indian Affairs....................................................................................................................... 7
Bureau of Land Management.............................................................................................................. 15
Bureau of Reclamation....................................................................................................................... 19
Minerals Management Service........................................................................................................... 21
National Park Service......................................................................................................................... 25
Office of Insular Affairs...................................................................................................................... 31
U.S. Fish and Wildlife Service............................................................................................................ 37
U.S. Geological Survey....................................................................................................................... 41

Appendices
1.	    Summary of Audit and Related Activities
       From April 1, 2007, Through September 30, 2007 . .................................................................. 43
2.	    Reports Issued During the 6-Month Period That Ended
       September 30, 2007.................................................................................................................... 44
3.	    Monetary Impact of Audit and Evaluation Activities From April 1, 2007,
       Through September 30, 2007 . ................................................................................................... 48
4.	    Non-Federal Funding Included In Audit Monetary Impact........................................................ 49
5.	    Audit and Evaluation Resolution Activities . ............................................................................. 50
6.	    Summary of Audit and Evaluation Reports Over 6 Months Old
       Pending Management Decisions at September 30, 2007 . ......................................................... 54
7.	    Summary of Performance Audit, Financial Audit, and Evaluation Reports
       Over 6 Months Old Pending Corrective Action at September 30, 2007 . .................................. 56
8.	    Reports Issued on Information Security..................................................................................... 59
Cross-references to the Inspector General Act .................................................................................. 60
General Information . ......................................................................................................................... 61
                                          Semiannual Report to the Congress - April 1, 2007 - September 30, 2007                                        
Statistical Highlights



            INVESTIGATIONS
            STATISTICAL HIGHLIGHTS
           Investigative Activities
           Cases Closed................................................................................................................................. 282
           New Cases Opened....................................................................................................................... 209
           Hotline Complaints/Inquiries Received.......................................................................................... 70

           Criminal Investigative Activities
           Indictments/Information................................................................................................................. 39
           Convictions..................................................................................................................................... 17
           Sentencings..................................................................................................................................... 15
                  - Jail........................................................................................................................................................117 months
                  - Probation .............................................................................................................................................498 months
                  - Community Service................................................................................................................................400 hours
                  - Criminal Penalties....................................................................................................................................$176,253
           Criminal Matters Referred for Prosecution..................................................................................... 32
           Criminal Matters Declined.............................................................................................................. 26

           Civil Investigative Activities
           Civil Referrals................................................................................................................................... 4
           Civil Declinations............................................................................................................................. 5
           Civil Judgements/Settlements....................................................................................... $105,469,226

           Administrative Investigative Activities
           Removals........................................................................................................................................... 2
           Downgrades...................................................................................................................................... 1
           Contractor Debarments..................................................................................................................... 3
           Retirements....................................................................................................................................... 1
           Suspensions....................................................................................................................................... 6
           Resignations...................................................................................................................................... 3
           Reprimands/Counseling.................................................................................................................. 13
           Reassignments/Transfers.................................................................................................................. 1
           General Policy Actions................................................................................................................... 17
           Administrative Recoveries................................................................................................ $2,234,500
           Bureau Non-Responsive*............................................................................................................... 12
           *Bureau Non-Responsive is a new category indicating failure by a bureau to respond to a referral for administrative action.

      ii   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                                                                                        Back to Toc
                                                                                                                               Statistical Highlights



AUDITS
STATISTICAL HIGHLIGHTS
Audit and related Activities

Reports Issued................................................................................................................. 45

Performance Audits, Financial Audits, Evaluations, and Verifications..................................... 27
Contracts and Grant Audits........................................................................................................ 15
Single Audit Quality Control Reviews........................................................................................ 3

Audit and Evaluation Impacts
Total Monetary Impacts........................................................................$20,719,581
Questioned Costs (includes unsupported costs)........................................................... $5,144,533
Recommendations That Funds Be Put to Better Use................................................... $8,732,625
Lost or Potential Additional Revenues........................................................................ $6,842,423
Wasted Funds*............................................................................................................................. 0

Audit and Evaluation Recommendations Made..................................... 123

Audit and evaluation Recommendations Resolved............................ 153




* Wasted Funds is a category used to classify funds that were wasted and cannot be recovered.




                                         Semiannual Report to the Congress - April 1, 2007 - September 30, 2007                                    iii
                                                                                                                             Back To Toc
     OIG Organizational Chart




                                            OIG Organization Chart
                                                                     Inspector General                                          Associate IG
             Office of General Counsel                                                                                         External Affairs
                                                                      Deputy Inspector General                                  Associate IG
                                                                                                                          Whistleblower Protection
                                                                                   Chief Of Staff

                                                                                                                                   AIG
                       AIG                                        AIG                                    AIG                    Management
                   Investigations                                Audits                              Information
                                                                                                     Technology                 Deputy AIG

                                                                                                                                    Human
                                                             Principal          Deputy AIG                 Information             Resources
         Deputy Assistant       Principal Deputy           Deputy AIG           Headquarters               Technology
            Inspector               Assistant                                                                                       Division
                                                         Field Operations        Operations                  Division
           General for              Inspector
          Investigative           General for
             Support             Investigations                                                                                    Financial
                                                                                                           Information            Management
                                                                                                             Security              Division
                                                    External             Central                             Division
                            Program
                            Integrity                Audits              Region
                                                    Reston, VA        Lakewood, CO                                                 Operations
                            Division                                                                                                Support
                                                                     Albuquerque, NM           Financial                            Division
                                                                                                Audits

           Eastern Region            Central Region
            Atlanta, GA             Albuquerque, NM                             Program Analysis
            Herndon, VA               Billings, MT
           New York, NY                                                                and
            St. Paul, MN
                                     Lakewood, CO                               Technical Support
                                     Rapid City, SD
                                       Tulsa, OK
          Western Region
           Sacramento, CA
            Portland, OR                                    Western Region
            Honolulu, HI                                       Sacramento, CA
                                                                Honolulu, HI
                                                               St. Thomas, VI




          Special                        Quality                 Policy and              Technical                 Computer
         Initiatives                    Assurance                 Planning               Support                    Crime
            Unit                          Unit                      Unit                   Unit




iv   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                                                               Back To Toc
                                                        Significant Audits, Evaluations, and Investigations



Mission and Top Management
Challenges for the Office
of Inspector General
Mission
    The mission of the OIG is to promote excellence, integrity, and accountability in the programs, operations,
and management of DOI.

Responsibilities
    The OIG is responsible for independently and objectively identifying risks and vulnerabilities that directly
impact, or could impact, DOI’s ability to accomplish its mission. We are required to keep the Secretary and the
Congress fully and currently informed about problems and deficiencies relating to the administration of DOI
programs and operations. Effective implementation of this mandate addresses the public’s demand for greater
accountability and integrity in the administration of government programs and operations, and addresses the
demand for programs that work better, cost less, and get the results Americans care about most.

Activities
    The OIG accomplishes its mission by conducting audits, evaluations, assessments, and investigations
relating to the programs and operations of DOI. Our activities are tied directly to DOI’s major responsibilities
and are designed to assist DOI in developing solutions for its most serious management and program
challenges, most notably cross-cutting or DOI-wide issues. These activities are also designed to ensure that
we keep critical issues prominent, which greatly influences key decisionmakers and increases the likelihood
that we will achieve desired outcomes and results that benefit the public.



                        DOI’s Top Management Challenges
     Financial Management

     Information Technology

     Health, Safety, and Emergency Management

     Maintenance of Facilities


     Responsibility to Indians and Insular Areas

     Resource Protection and Restoration

     Revenue Collections

     Procurement, Contracts, and Grants


                            Semiannual Report to the Congress - April 1, 2007 - September 30, 2007                 
                                                                                        Back To Toc
                    Department of the Interior




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                        Significant Audits, Evaluations, and Investigations




     DOI Former Deputy Secretary
     Pleads Guilty And Goes To Prison
          On March 23, 2007, former Deputy Secretary of the Interior
     Steven J. Griles pleaded guilty to a one count criminal informa-
     tion. He was charged with obstruction of U.S. Senate proceedings.
     Griles admitted that he obstructed the Senate’s power of inquiry
     when he withheld material information and that he continually lied
     to the investigators and to senators.

         On October 20 and November 5, 2005, Griles appeared before
     investigators and members of the U.S. Senate Committee on Indian
     Affairs to answer questions and testify about his relationship with
     former Washington, D.C., lobbyist Jack Abramoff. Griles withheld
     information about the nature of his relationship with Italia Federici,
     who, in her capacity as president of the Council of Republicans for
     Environmental Advocacy, introduced him to Abramoff.

          Griles also withheld information about Abramoff’s access to
     him. His obstruction prevented the congressional inquiry from
     discovering the true extent of Abramoff’s access to Griles, the
     official acts and favors Griles performed for Abramoff, the return
     favors Griles requested of Abramoff, and the employment
     negotiations between Griles and Abramoff. Griles was sentenced
     to 10 months of incarceration and a fine of $30,000. He began
     serving his sentence on September 13, 2007. His release date
     is July 13, 2008.

     Man Found Guilty For Selling
     Counterfeit Indian Jewelry
         On August 16, 2007, a jury in Gallup, NM, found Amro
     Al-Assi, former owner of Silver Bear Trading Company, guilty of
     fraud for selling counterfeit Indian jewelry, a state felony charge.

          In August 2004, a Maryland tourist purchased a bracelet from
     Silver Bear Trading Company. According to the tourist, she was
     told by Al-Assi that the bracelet had been hand-crafted by well
     known Indian artist Jesse Monongya. The tourist subsequently met
     with Monongya, who examined the bracelet and identified it as an
     unauthorized counterfeit reproduction. Monongya, a former mem-
     ber of the Indian Arts and Crafts Board (IACB), reported the fraud
     to the IACB and the OIG.

         This case is one of the first successful prosecutions of a mer-
     chant dealing in counterfeit copies of Indian jewelry. New Mexico
     State authorities embraced the case as an opportunity to protect the

Semiannual Report to the Congress - April 1, 2007 - September 30, 2007        
                                                               Back To Toc
                                       tourist industry and Indian artists. Al-Assi, a resident foreigner,
                                       faces a $5,000 fine, as well as possible deportation for his
                                       felony conviction.

                                           The OIG initially addressed the issue of counterfeit Native
                                       American jewelry in June 2005. That report, Indian Arts and Crafts:
                                       A Case of Misrepresentation, may be found at http://www.doioig.
                                       gov/upload/2005-G-0015.pdf .

                                       Charge Card Programs
                                       Undergo Evaluation
                                            DOI spends more than $600 million a year using charge cards,
                                       which places it at a potentially high financial risk. The OIG evaluated
                                       the number of charge-card holders and their credit limits across all
                                       DOI bureaus and offices. It found that DOI has issued an excessive
                                       number of charge cards with purchase authority, established undue
                                       monthly purchase limits, and maintained a large number of inactive
                                       fleet cards.

                                           First, DOI has issued purchase cards to 40 percent of its
                                       employees, an excessive number by all benchmarks. Second, the
                                       collective monthly purchase-cycle limit associated with these ac-
                                       counts is more than $110 million. These limits far exceed actual
                                       monthly purchases. Based on OIG analysis and on commonly ac-
                                       cepted best practices, evaluators determined that the credit limits of
                                       purchase-card holders appear to greatly exceed need.

                                           Finally, as of March 2007, more than 1,700 accounts that had
                                       been open for more than 1 year showed no purchase activity for at
                                       least 1 year. In addition, approximately 29 percent of fleet cards
                                       had no activity for at least a year. Also, DOI has no procedures for
                                       deactivating fleet cards. The OIG report made several suggestions to
                                       improve purchase- and fleet-card administration.

                                       NBC IT Security Evaluation Finds
                                       Noncompliance For Program
                                           As part of the OIG’s ongoing effort to evaluate DOI information
                                       security, the OIG evaluated the National Business Center (NBC)
                                       information security program. OIG information technology (IT) staff
                                       evaluated management, operational, and technical controls specified
                                       in National Institute of Standards and Technology (NIST) guidance.
                                       Additionally, staff evaluated NBC’s progress toward implementing
                                       Federal Information Processing Standards baseline security controls.


   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                       Back To Toc
                       Significant Audits, Evaluations, and Investigations




     The OIG determined that NBC is not in compliance with DOI directives
     or with NIST standards and guidance. The information security program
     at NBC has not evolved toward compliance and is currently faced with
     significant challenges.

     Insider Threat Evaluations
     Conducted for DOI Programs
         The Computer Crime Institute and the FBI conduct an annual
     survey of computer crimes. In 2005, they concluded that attacks origi-
     nating from inside network boundaries occur at least as frequently as
     those originating from outside the perimeter. These “insider attacks,” as
     they are commonly called, may result in damage and financial loss to an
     organization.

         To determine the level of bureau protection against such threats,
     the OIG evaluated the effectiveness of BLM, the Minerals Management
     Service (MMS), and NBC internal network security control architecture.
     IT specialists wanted to assess the internal networks and identify the
     risks associated with trusted insiders, as well as the capability of
     protective measures to mitigate these risks.

          The OIG demonstrated that an inside attacker could easily compro-
     mise networks in a very short time, using only the equipment available
     at a workstation maintained by a program. Weaknesses in workstation
     configurations were exploited to gain administrator access, thus circum-
     venting the typical authentication required to access the system with an
     approved user account. Testing activities also identified weaknesses in
     internal information security access controls. These weaknesses allowed
     unauthorized access to systems and data.

     FISMA Report Completed For DOI
         The OIG conducted its 2007 evaluation of the DOI IT security pro-
     gram, as required by the Federal Information Security Management Act
     of 2002 (FISMA). OMB requests that the annual evaluation assess a
     representative subset of systems and establish the adequacy and effec-
     tiveness of agency IT policies, as well as the implementation status of
     NIST guidance. The evaluation includes testing of management, opera-
     tional, and technical controls, as well as a qualitative assessment of the
     agency’s compliance with FISMA. The results of the FY 2007 FISMA
     evaluation, as well as OIG recommendations, are included in the report.




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007            
                                                               Back To Toc
                                           In general, DOI made good progress in a number of key FISMA
                                       areas and took corrective action to address IT security weaknesses
                                       noted in the FY 2006 FISMA report. However, the OIG evaluation
                                       determined that the IT program for DOI has not been consistently im-
                                       plemented across all of the bureaus and that the resulting weaknesses
                                       hinder full compliance with FISMA. During FY 2007, improvements
                                       were noted in system security categorizations, annual self-
                                       assessments, and the Plan of Actions and Milestones process. Never-
                                       theless, challenges still remain in DOI’s certification and accreditation
                                       program and system configuration management.

                                       Vulnerability Assessment
                                       For RIDB Completed
                                           DOI’s Recreation Information Database (RIDB) application,
                                       which is a contractor-managed system, received a limited vulner-
                                       ability assessment from the OIG. RIDB is one component of the
                                       Recreation One Stop, E-Government Initiative, which resulted from
                                       an interagency partnership composed of the U.S. Forest Service, the
                                       Army Corps of Engineers, and the National Park Service (NPS). The
                                       OIG performed this vulnerability assessment as part of its FY 2007
                                       technical testing program. The assessment found the application to
                                       be generally secure. Security appears to be commensurate with the
                                       sensitivity of the data hosted by the system. However, the OIG evalu-
                                       ation identified a number of vulnerabilities needing mitigation. The
                                       report made five recommendations that should be addressed by DOI
                                       to bolster the IT posture of the Web application.




   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                      Back To Toc
                     Significant Audits, Evaluations, and Investigations




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007     
    Significant Audits, Evaluations, and Investigations

                 Bureau Of Indian Affairs




   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                       Significant Audits, Evaluations, and Investigations




      Settlement Reached On
      Meridian Oil, Inc., Case
          Burlington Resources, Inc., formerly Meridian Oil, Inc.,
      agreed to pay approximately $105 million on August 15,
      2007, after entering into a settlement agreement with DOI
      and DOJ. The agreement resolves allegations that the cor-
      poration knowingly underpaid natural gas royalties produced
      from federal leases. The Bureau of Indian Affairs (BIA),
      which acted on behalf of various Indian mineral owners, the
      Jicarilla-Apache Tribe, the Southern Ute Tribe, and the Ute
      Mountain Ute Tribe, cooperated with the OIG, as did MMS.

           Aspects of the case began as long ago as August 2, 1996,
      when Harold E. Wright filed a qui tam suit against Burlington
      Resources and others under the False Claims Act. On
      October 29, 1998, the investigation commenced predicated
      on the qui tam action in the U.S. District Court for the
      Eastern District of Texas, alleging widespread underpayment
      of federal royalties for the production of natural gas and
      natural gas liquids by multiple oil companies, including
      Meridian Oil, Inc. Then, on March 28, 2000, the DOJ, with
      the investigative assistance of the OIG, intervened in the
      qui tam action and filed a complaint alleging that Meridian
      underpaid federal royalties on natural gas.

      Report Highlights
      Tribal Successes
          An interagency team from the DOI-OIG and the
      Environmental Protection Agency (EPA) OIG worked with
      14 Indian tribes to identify how the tribes successfully met
      environmental and natural resource challenges, ranging from
      cleaning up hazardous waste to restoring degraded lands.
      The primary purpose of this unique effort was to provide
      models that would inspire others to successfully implement
      their own natural resource and environmental programs. EPA
      and DOI officials also could use the models to expand tribal
      capability and capacity in the arena of environmental
      program implementation.

          The team concluded that the many success stories they
      found resulted from the tribes’ use of innovative practices to
      overcome such barriers as resource limitations and legal and




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007       
                                                             Back To Toc
                                       regulatory issues, which tend to impede or block protection efforts.
                                       Among the primary innovations were the creation of successful
                                       collaborations and partnerships, reliance on the power of community
                                       to maximize existing resources and garner new ones, and an emphasis
                                       on securing the long-term sustainability of natural resources for
                                       future generations.

                                           The scope and outcome of these innovative practices are such that
                                       they can be applied across a broad spectrum of stakeholders, includ-
                                       ing all levels of government, tribal entities, and any other organization
                                       committed to achieving sustainable conservation and environmental
                                       protection. Underscoring the success of the collaborative effort, the
                                       interagency team received an award for excellence from the
                                       President’s Council on Integrity and Efficiency in October 2007.

                                       Unsafe Conditions Found
                                       at Indian Schools
                                            The Bureau of Indian Education (BIE) is responsible for 184
                                       elementary schools, secondary schools, and dormitories serving ap-
                                       proximately 50,000 students. The OIG visited 13 schools and dormi-
                                       tories and found significant deterioration that endangered the health
                                       and safety of students and employees. Deterioration ranged from
                                       minor issues such as leaking roofs to severe deficiencies such as class-
                                       room walls buckling and walls separating from foundations. Other
                                       severe deficiencies included outdated electrical systems, inadequate
                                       fire detection and suppression systems, and improperly maintained
                                       furnaces. BIE has identified 69 schools in poor condition. The
                                       Assistant Secretary for Indian Affairs concurred with the OIG’s find-
                                       ings and agreed that the schools face significant challenges. Although
                                       BIA did not feel these issues were imminently life threatening, it did
                                       agree to implement the OIG’s recommendations.

                                       Former School Official Pleads
                                       Guilty To Embezzlement
                                           Lonnie King, Jr., a former accounting technician for the
                                       Southwestern Indian Polytechnic Institute (SIPI), pleaded guilty in
                                       U.S. District Court for the District of New Mexico to one count of
                                       theft of government property. King’s sentencing date is scheduled
                                       for November 21, 2007.

                                            Between 2001 and 2005, King managed SIPI’s student fee fund.
                                       He collected fees or deposits from students to cover the expense of
                                       lost books, keys, and damage to dormitory rooms. In 2005, a reduc-
                                       tion in force caused King’s position to be terminated. SIPI officials


   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                      Back To Toc
                       Significant Audits, Evaluations, and Investigations




      subsequently discovered that King embezzled approximately
      $11,270 from a SIPI account by forging the name of SIPI’s
      registrar. Additionally, 799 SIPI money orders, totaling $39,010,
      were recovered from King’s residence after his wife found them
      and turned them over to law enforcement officials.

          King has entered into a plea agreement with the U.S.
      Attorney’s Office. He has agreed to pay restitution for the money
      he embezzled.

      Consultant Sentenced in
      Pharmaceutical Fraud
           A multi-agency investigation involving the FBI, the OIG and
      the Food and Drug Administration led to the sentencing of Wilbur
      “Bill” Swift, Jr., a former pharmaceutical consultant for the Fort
      Sill Apache Tribe of Oklahoma. Swift was sentenced to 5 years
      of supervised release on May 24, 2007. He pleaded guilty in U.S.
      District Court, Western District of Missouri, to a one count crimi-
      nal information for interstate transportation of property obtained
      by fraud. Swift was facing 51 to 60 months in prison, based on the
      sentencing guidelines.

         As first reported in the October 2005 Semiannual Report,
      Swift’s partner and accomplice, Fred Solmor, was sentenced on
      April 22, 2005, in the U.S. District Court, Southern District of
      Texas, to 51 months in federal prison and 36 months of probation.
      Solmor pleaded guilty to a similar count.

           Swift and Solmor were charged in 2004 in U.S. District Court,
      Western District of Oklahoma, with interstate transportation of
      property obtained by fraud. These charges resulted from their
      illegal pharmaceutical diversion fraud scheme involving the Fort
      Sill Apache Tribe.

           Under a consulting agreement with the tribe to establish a
      tribal pharmacy, Swift and Solmor illegally purchased pharma-
      ceuticals at discounted, federal-contract prices, with the intent of
      reselling these items unlawfully for profit in the pharmaceutical
      wholesale black market. Swift and Solmor abused the Fort Sill
      Apache Tribe’s federally recognized status and its federal contracts
      in order to obtain these discounted pharmaceuticals, which were
      restricted for the tribe’s internal use and not eligible for resale.
      Swift and Solmor diverted approximately $1.8 million in pharma-
      ceuticals from the tribe by secretly selling these pharmaceuticals
      to shell companies they controlled and then reselling them again at
      a profit in the pharmaceutical wholesale black market.


Semiannual Report to the Congress - April 1, 2007 - September 30, 2007       
                                                               Back To Toc
                                        Texas Judge Charged After
                                        Filing False Campaign Reports
                                            Texas State District Judge Amado J. Abascal III, 365th District
                                        Court, Maverick County, TX, pleaded guilty on July 12, 2007, to a
                                        one-count charge of tampering with a government record. The state
                                        court in Austin, TX, sentenced Abascal to pay a $4,000 fine as well
                                        as a $15,000 civil penalty.

                                             In 2002, Abascal submitted false information on his campaign
                                        finance reports to the Texas Ethics Commission. He reported that he
                                        received 15 separate campaign contributions of $1,000 each from
                                        15 different contributors, when in fact he received $15,000 in cash
                        Heilemann/DOI   from Isidro Garza, a tribal representative with the Kickapoo
                                        Traditional Tribe of Texas. Garza removed $15,000 in cash from the
                                        Kickapoo Lucky Eagle Casino and gave it to Abascal. Garza also
                                        provided Abascal with a list of 15 names representing straw con-
                                        tributors. Abascal used these names on his campaign finance reports
                                        to the Texas Ethics Commission, falsely certifying that the donors
                                        contributed $1,000 each.

                                            Abascal’s actions violated three sections of the Texas Election
                                        Code. He is also undergoing an administrative ethics inquiry by the
                                        Texas Commission on Judicial Conduct, which suspended Abascal
                                        from serving on the bench in October 2005 after his indictment.

                                            The Travis County District Attorney’s Office in Austin, TX,
                                        prosecuted Abascal’s case. This matter was investigated as part of a
                                        multi-agency task force, including the OIG.

                                        Texas Kickapoo Tribal Chairman
                                        Sentenced for Conspiracy
                                            Raul Garza, Sr., former tribal chairman of the Kickapoo
                                        Traditional Tribe of Texas (KTTT), was sentenced on May 17, 2007,
                                        in U.S. District Court for the Western District of Texas to 3 years of
                                        confinement and 3 years of supervised release. He also was ordered
                                        to pay $2,052,424 in restitution, after pleading guilty to conspiring to
                                        embezzle funds from KTTT.

                                            Raul Garza, Sr., along with four other former KTTT officials,
                                        pleaded guilty on October 24, 2006, to embezzlement and tax eva-
                                        sion conspiracies in connection with a scheme to steal more than
                                        $900,000 in funds from the tribe. The other defendants included for-
                                        mer KTTT tribal representative Isidro Garza, Jr., who pleaded guilty



10   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                           Back To Toc
                       Significant Audits, Evaluations, and Investigations




    to one count of conspiracy to embezzle funds from the KTTT and one
    count of conspiracy to evade income tax payments. Isidro Garza’s
    wife, Martha Garza, and son Timoteo Garza (former Texas State Rep-
    resentative) pleaded guilty to one count of conspiracy to evade income
    tax payments. Former KTTT casino manager Arthur Lee Martin also
    pleaded guilty to one count of conspiracy to embezzle funds from the
    KTTT. This matter was investigated as part of a multi-agency task
    force, including the OIG.

    Oglala Tribal Officials Charged
    With Embezzlement
        On April 19, 2007, three former Oglala Sioux tribal officials, Pine
    Ridge Indian Reservation, SD, were indicted for allegedly embezzling
    approximately $100,000 in payroll funds. The same officials were also
    charged with aiding and abetting one another in the alleged scheme.

         The indictment alleged that former treasurer David Rabbit, former
    payroll supervisor Kim Colhoff, and former finance committee coordi-
    nator Eileen Janis obtained excessive payroll advances from the tribe
    that were not fully repaid. A substantial amount of these funds had
    been allocated to the tribe by DOI and other federal agencies as indirect
    cost funds to cover payroll costs for administrative personnel. Also, as
    tribal treasurer, Rabbit was responsible for millions of dollars the tribe
    received annually from these sources.

        On June 15, 2007, Rabbit pleaded guilty to one count of embezzle-
    ment. On August 27, 2007, he was sentenced to 5 years of probation
    and restitution in the amount of $9,898. Colhoff and Janis are
    scheduled for trial on October 23, 2007.

    Petroleum Engineer Sentenced
    for Possession of Pornography
       Kenneth Young, a BIA petroleum engineer, was sentenced to 33
    months of incarceration and 3 years of probation in the U.S. District
    Court of Colorado after he was convicted in January 2007 of possessing
    hundreds of images of child pornography on his government computer.
    He was also required to register as a sex offender.

       In October 2001, a BIA computer specialist at the Southern Ute
    Agency in Ignacio, CO, discovered pornographic materials on the gov-
    ernment computer assigned to Young. As a result of an investigation
    conducted by the OIG and the FBI, Young was indicted and charged




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007           11
                                                            Back To Toc
                                        in 2004 with two felony counts of possession of material involving
                                        the sexual exploitation of minors. Young has been on administrative
                                        leave since his arrest in 2004. BIA has initiated administrative action
                                        to remove him.

                                        Construction Company Owner
                                        Pleads Guilty to Theft
                                            On November 28, 2006, Robert Gipson pleaded guilty before
                                        the U.S. District Court in Billings, MT, to one count of theft from an
                                        Indian Tribal Organization. Gipson, the co-owner of Cedar River
                                        Construction, named himself as the nominee of two fictitious contracts
                                        with the Crow Tribe of Indians, totaling $108,800. He also accepted
                                        payment of tribal funds on these contracts, knowing that no goods,
                                        work, or service had been given or performed.

                                            Gipson subsequently made kickbacks from the embezzled
                                        contract funds to Clifford Birdinground, Crow Tribal Chairman, and
                                        Kelly Passes, Crow Tribal Finance Director.

                                            On May 3, 2007, Gipson appeared in the U.S. District Court for
                                        the District of Montana where he was sentenced to 5 months of home
                                        confinement and probation for a term of 4 years. He was ordered to
                                        pay restitution of $12,600 to the Crow Tribe of Indians. Gipson did
                                        not receive a fine because of his inability to pay.

                                        Operations Clerk Indicted
                                        For Theft Of Casino Funds
                                           Kala R. Dennis, a former casino operations clerk, was indicted on
                                        May 9, 2007, in the Middle District of Alabama on charges of
                                        conspiracy and theft by an Indian casino employee.

                                            In November 2004, the Indian Gaming Commission contacted
                                        the OIG regarding the theft of $120,000 from a Poarch Band of Creek
                                        Indians casino (Tallapoosa Entertainment Center, located in Mont-
                                        gomery, AL). After her indictment, Dennis surrendered and pleaded
                                        not guilty at her arraignment.

                                             The 42-count indictment alleges that co-defendant Frederick
                                        Burrell, who accepted a plea agreement and subsequently pleaded
                                        guilty to the same charges on May 4, 2007, developed a scheme
                                        through which he could take money from the casino, then make false
                                        entries in casino records to conceal the thefts. After succeeding sev-
                                        eral times, he recruited Dennis to participate.




12   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                    Back To Toc
                       Significant Audits, Evaluations, and Investigations




         With Dennis as his partner, Burrell stole approximately $128,000. On
     her own, Dennis stole an additional $131,000. She told co-workers her
     new wealth came from gambling winnings, as she passed out $100 bills
     and purchased vehicles.

     Defendant Pleads Guilty
     To False Statements
          David T. Collier and Robert H. Price, III, each pleaded guilty on
     August 3, 2007, in the District of Columbia to one count of making false
     statements.

         During an investigation of alleged fraud involving trust funds for
     the Catawba Indian Nation in Rock Hill, SC, the OIG determined that
     Collier and the Catawba Indian Nation had formed a joint venture called
     New River Management and Development Company, LLC. The purpose
     of forming New River was to manage the Catawba’s South Carolina
     bingo hall. The Catawbas owned 51 percent of New River and Collier
     owned the other 49 percent. Price acted as the Chief Operation Officer
     for New River and managed the operations of the bingo hall.

          Continued investigation by the OIG and the FBI revealed that Collier
     and Price engaged in illegal conduit political campaign contributions.
     Both directed their families and business associates to donate money to
     state and federal political candidates and then reimbursed those individu-
     als using Catawba funds managed by the two defendants. Sentencing is
     scheduled for November 19, 2007.

     Office Manager Pleads
     Guilty to Embezzlement
         Candace Gray, a former office manager for the Mesa Grande Band
     of Mission Indians, pleaded guilty to misappropriating approximately
     $40,000 in tribal funds to support her gambling habit. The Mesa Grande
     Band of Mission Indians is a federally recognized tribe located in South-
     ern California. The tribe received approximately $358,514 in grant
     monies from the BIA while Gray was the office manager. On July 20,
     2007, Gray pled guilty in U.S. District Court in the Southern District of
     California to embezzlement charges.




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007            13
                                                              Back To Toc
             Bureau of Land Management




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                        Significant Audits, Evaluations, and Investigations




     Environmental Health and
     Safety Issues Uncovered
         Immediate action is required to protect the health and safety of the
     public and employees in California’s Rand Mining District. In February
     2006, BLM identified evidence of serious environmental contamination
     from abandoned mines in the area. Known contaminants include arsenic
     at unsafe levels. While BLM has initiated a Time-Critical Removal Ac-
     tion under the Comprehensive Environmental Response, Compensation
     and Liability Act (CERCLA), it has not taken timely action to mitigate
     the current health risks to the public and employees.

         Approximately 400 district residents are exposed to arsenic-laden
     dust. In fact, some residential properties are located adjacent to piles
     of contaminated mine tailings. However, BLM has not taken sufficient
     steps to identify the extent of contamination on residential properties,
     install air monitoring equipment to measure arsenic exposure levels,
     or fence hazardous mine sites and tailings. Additionally, BLM has not
     developed and implemented a community relations plan, in spite of resi-
     dents’ complaints that they are not being informed of activities.

          The Rand Mining District is a popular destination for Off Highway
     Vehicle (OHV) users. As recently as April 2007, OHV users rode along a
     BLM authorized trail that crossed a 60-acre pile of highly contaminated
     mine tailings. At the time of our visit, BLM had taken no action to close
     the portion of the trail that crossed the pile or to install fences to restrict
     access to the contaminated areas. Subsequent to our visit, we were
     informed that BLM rerouted the trail and installed fencing to prevent
     OHV users from using the closed portion. Nevertheless, BLM has not
     installed fencing around the entire tailings pile or installed signs warning
     of the specific dangers.

          BLM employees who visit the district also risk exposure to high
     arsenic levels. BLM prepared a Site Safety and Health Plan to protect
     employees and contractors. The plan included medical monitoring of
     project personnel and air monitoring during work activities. However,
     this plan has not been fully implemented.

         The OIG made six recommendations to protect the public and
     employees from hazards in the Rand Mining District. The OIG visited
     the district as part of an audit to determine if DOI and its bureaus have
     adequate Abandoned Mine Land programs to protect public health and
     safety. While this audit is not yet complete, the OIG issued a separate
     report on the district to alert DOI and bureau management of serious
     issues at this site so that timely action could be taken.




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007                 15
                                                                 Back To Toc
                                         Gravel Company Vice President
                                         and BLM Geologist Sentenced
                                             Curtis Slade, former vice president of Newco Aggregate in
                                         Farmington, NM, was sentenced on May 15, 2007, in U.S. District
                                         Court for the District of New Mexico to 4 months of imprisonment
                                         and 12 months of supervised release. He also was ordered to pay a
                                         $1,000 fine. Slade pleaded guilty in 2006 to providing gratuities to
                                         a public official. Newco held BLM sand and gravel permits. Slade
                                         gave Ralph Mason, a former geologist with BLM’s Farmington Field
                                         Office, gratuities to overlook permit requirements and accelerate the
                                         permit process.

                                             Mason was removed from federal service in December 2003 and
                                         convicted in 2006 for accepting bribes from Slade and from Norman
                                         Geoff McMahon, the former president of Newco. Also, Mason was
                                         sentenced to 3 years of probation and ordered to pay a $300 assess-
                                         ment in April 2007.

                                         Tighter Controls Would
                                         Improve Accountability
                                              An OIG follow-up audit revealed that BLM has not implemented
                                         tighter controls over funds generated by public land sold under the
                                         Southern Nevada Public Land Management Act (SNPLMA), as
                                         agreed to by the BLM State Director, NV, in the OIG September
                                         2003 report. BLM had agreed that it had made inappropriate charges
                                         to the SNPLMA account and stated that it would implement
                                         “stringent fund controls.”

                                              However, the follow-up audit found that BLM had not only
                                         failed to tighten controls over SNPLMA funds, but, in fact, had re-
                                         duced controls by reorganizing the SNPLMA project office.
                                         This reorganization, coupled with the absence of independent
                                         review and oversight, resulted in incorrectly charging SNPLMA
                                         funds for BLM activities. Tighter controls are essential, given the
                                         significant revenues projected for the sale of federal land surrounding
                                         Las Vegas, NV.

                                              BLM also began directly transferring funds for SNPLMA
                                         projects (upfront funding) to its federal partners (NPS, the U.S. Fish
                                         and Wildlife Service, and the U.S. Forest Service), without establish-
                                         ing the controls necessary to ensure accountability for these funds,
                                         as well as demonstrating results. In its response, BLM generally
                                         concurred with the OIG’s four report recommendations, stating that
                                         it “strongly agreed that the programs authorized by SNMPLA must


16   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                       Back To Toc
                       Significant Audits, Evaluations, and Investigations




    have effective internal controls to ensure appropriate execution.” BLM
    also said it had hired an independent consulting firm to complete a re-
    view of charges to the SNPLMA operating account for FYs 2004, 2005,
    and 2006 by April 2007.

    BLM Computer Security
    Making Progress
        The OIG conducted an evaluation of BLM information security
    controls to ensure the confidentiality, integrity, and availability of the
    bureau’s IT resources. The OIG conducted these activities in accordance
    with NIST to determine if BLM deployed effective management,
    operational, and technical information security controls.

         The OIG evaluated a representative sampling of information security
    controls and determined that the bureau generally complies with DOI
    directives and NIST standards and guidance. During the evaluation,
    the OIG interviewed BLM personnel, examined source documents, and
    tested actual implementations of security controls to assess the bureau’s
    level of compliance. The BLM information security program is making
    progress with all facets of NIST requirements.

    External Penetration
    Test Completed
        The OIG conducted external penetration testing of networks
    belonging to BLM. This was done to ascertain potential security weak-
    nesses of network devices and hosts. Penetration testing was part of
    an ongoing DOI effort to evaluate the security posture of the bureaus’
    network perimeter. This test was performed with the knowledge and
    cooperation of the DOI Enterprise and Services Network (ESN) staff and
    BLM staff managing the bureau network defense systems. As a result,
    comprehensive testing was conducted, and efforts were not hindered by
    the normal security defenses of ESN and BLM.

        Overall, the testing demonstrated that many excellent security
    practices are in place and that the security controls in use would make
    identifying and exploiting bureau vulnerability difficult. The OIG was
    not able to penetrate the test environment or gain unauthorized access to
    BLM networks or systems from the Internet.




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007           17
                                                         Back To Toc
     Significant Audits, Evaluations, and Investigations
                  Bureau of Reclamation




18   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                        Significant Audits, Evaluations, and Investigations




     External Computer Penetration
     Test Results Show Improvement
          The OIG conducted external penetration testing of Bureau of
     Reclamation (BOR) networks to evaluate potential security weaknesses
     of network devices and hosts. BOR uses ESN for its perimeter security.
     ESN has aggressive network defense techniques to block addresses
     at the DOI perimeter when they appear to be attacking DOI hosts and
     networks. During penetration testing, the OIG was able to assess the
     effectiveness of the ESN defensive systems. Testing activities were
     detected, indicating that, overall, BOR’s Internet facing security posture
     has significantly improved since the bureau transitioned to the ESN
     infrastructure. The IT environment now exhibits many excellent
     security practices and controls.




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007            19
                                                               Back To Toc
     Significant Audits, Evaluations, and Investigations
                   Minerals Management Service




20   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                        Significant Audits, Evaluations, and Investigations




    Reports Reveal Widespread
    Problems in Oil Program
        At the request of Secretary Dirk Kempthorne and several Members
    of Congress, the OIG opened an investigation into the legitimacy of
    claims made in a series of qui tam lawsuits filed by Minerals Manage-
    ment Service (MMS) auditors against oil companies for alleged un-
    derpayments of royalties and interest owed. The OIG also examined
    whether or not the auditors had followed proper procedures for reporting
    their allegations, whether they had improperly used proprietary informa-
    tion in pursuing their claims, and, finally, whether or not they had been
    retaliated against by MMS for filing these lawsuits.

        The OIG report focused on Minerals Revenue Management (MRM),
    a program within MMS fraught with difficulties stemming from myriad
    causes. The OIG expressed concern regarding the bureau’s complex
    relationship with the energy industry; a profound failure in the develop-
    ment of a critical MRM IT system module that calculates interest on
    royalty payments; and a working environment where poor communica-
    tion compounded distrust by MMS employees.

        The OIG determined that the claims made in the auditors’ qui tam
    lawsuits were either based on a lack of knowledge of other MMS
    efforts to collect royalties and interest or the auditors disagreed with both
    MMS management decisions and MMS guidance that the companies
    were following. The OIG also found that the auditors did not properly
    report their suspicions of wrongdoing to the appropriate authorities,
    including the OIG, and that the auditors removed and used proprietary,
    sensitive, or confidential business information without authorization.

        While the OIG found no evidence that MMS deliberately retaliated
    against the qui tam relators, OIG did find a myriad of human resource
    faux pas, which, taken collectively, created an environment where
    reprisal could be perceived.

         The OIG presented its findings regarding the auditors’ potential mis-
    use of government records for their lawsuits to the DOJ, which declined
    criminal prosecution. The OIG has referred this case to the Assistant
    Secretary for Lands and Minerals Management for any follow-up action
    that he deems appropriate.




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007              21
                                                                 Back To Toc
                                        Alleged Sex Offender Indicted
                                            On March 19, 2007, Immigration and Customs Enforcement
                                        (ICE) contacted the OIG regarding possible child exploitation con-
                                        duct by an individual with access to an MMS computer. They ad-
                                        vised that someone using an MMS Internet IP address electronically
                                        communicated via e-mail, video, and chat with a Clayton County,
                                        GA, investigator posing as a 13-year-old female. Subpoena results
                                        identified Barry S. Drucker, a GS-14 employee with MMS in
                                        Herndon, VA.

                                            OIG agents arrested Barry S. Drucker on May 21, 2007, at Atlan-
                                        ta Hartsfield-Jackson International Airport as he exited a flight from
                                        Washington, D.C., allegedly to meet the 13-year-old. Two days later,
                                        on May 23, Drucker was indicted in the Northern District of Georgia
                                        for using the Internet to entice a minor to engage in prohibited sexual
                                        activity, and for using the Internet to transmit
                                        obscene material to a minor.

                                             Drucker allegedly arranged to fly to Atlanta to meet a minor for
                                        purposes of sex, using his government-issued credit card to pay for
                                        the flight and to make hotel and rental car reservations. He advised
                                        his MMS superiors of his intention to attend an oceanography confer-
                                        ence and created a flyer for the conference agenda. Once Drucker
                                        had been arrested, a team of OIG agents executed search warrants for
                                        his Virginia residence and office cubicle.

                                           Drucker remains in the custody of the U.S. Marshals Service
                                        while he awaits trial.




22   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                      Back To Toc
                     Significant Audits, Evaluations, and Investigations




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007     23
     Significant Audits, Evaluations, and Investigations
                   National Park Service




24   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                        Significant Audits, Evaluations, and Investigations




  Extradition of Defendant Results
  In Criminal Plea Of Guilty
       On August 13, 2007, Gregory Thomlison, a former chairman and chief
  executive officer of Destinet Corporation (Destinet), a former NPS contrac-
  tor, pled guilty in the U.S. District Court for the Southern District of Califor-
  nia to theft of government property amounting to $692,000 in federal money
  and $940,543 of state and local government dollars.

      The OIG investigation revealed that in 1994, Thomlison, as president
  and owner of Destinet, purchased a company called Mistix from the Home
  Shopping Network. Mistix managed reservations and ticketing for camp-
  grounds, sports venues, and other entertainment enterprises. NPS and the
  California State Parks and Recreation Department were among Mistix’s
  largest clients.

       As Destinet assumed the ownership of Mistix’s contracts, Destinet found
  itself required to collect reservations and tour fees from NPS patrons and
  then deposit the agency’s share of the proceeds into the U.S. Treasury. In
  early 1997, however, Destinet stopped paying on its state and federal con-
  tracts but continued to collect monies on their behalf. In 1997, Destinet
  declared bankruptcy and Thomlison fled to Ontario, Canada.

      On May 23, 2002, the Federal Grand Jury for the Southern District of
  California indicted Thomlison on 22 counts of theft of public funds, 22
  counts of wire fraud, 22 counts of foreign transfer of money taken from
  fraud, and 22 counts of illegal transfer of bankruptcy assets. As a result, the
  U.S. District Court issued a warrant for Thomlison’s arrest. From October
  1997 through July 2007, DOJ pursued Thomlison’s extradition from Canada.

      Finally, on July 12, 2007, after exhausting his appeals in the Canadian
  judicial system, Thomlison voluntarily returned to the United States and sur-
  rendered to federal authorities. On August 13, 2007, he appeared in the U.S.
  District Court, Southern District of California, where he pleaded guilty to
  one count of theft of public funds. Thomlison is scheduled to be sentenced in
  November 2007.

  Permits Allow Opportunity
  For Private Club Monopoly
      At the exclusion of the general public, NPS has allowed private parties
  or exclusive clubs to monopolize desirable locations near major metropoli-
  tan areas for decades. Holders of special-use permits, these private parties
  and clubs have enjoyed exclusive rights to public lands through restrictive
  and costly memberships that deny the general public the same benefits. For



Semiannual Report to the Congress - April 1, 2007 - September 30, 2007                25
                                                           Back To Toc
                                        example, at Gateway National Recreation Area in New York, two
                                        private beach clubs, the Silver Gull Beach and Breezy Point Surf
                                        Clubs, charge membership fees, ranging from $315 for a child to
                                        $770 for an adult couple, for a 3-month summer season. In addi-
                                        tion to these fees, members are typically required to pay a cabana
                                        rental fee, which ranges from a low of $400 to a high of $9,999 for
                                        the season.

                                            The OIG identified five instances where NPS has permitted
                                        groups to operate beach and surf clubs, boat moorings, canoeing
                                        facilities, and cabins that exclude the general public. Some of these
                                        operations located near major metropolitan areas offer preferential
                                        access to beaches, waterways, and scenic nature areas.

                                             Although NPS can issue special-use permits for a variety of
                                        activities on public lands, these permits are not to exceed 5 years
                                        duration. In instances the OIG identified, NPS continued to
                                        renew the permits, some for 30 years or more. In addition, it
                                        kept $2.6 million in permit fees, which should have been remitted
                                        to the Treasury.

                                            The audit also found that both NPS and BLM renewed permits
                                        without ensuring their compliance with the National Environmental
                                        Policy Act (NEPA).

                                            The OIG made four recommendations, requesting NPS to
                                        identify the extent of exclusive use, ensure full public access, and
                                        remit permit fees to the Treasury. It also provided a joint recom-
                                        mendation to NPS and BLM, requesting their compliance with
                                        NEPA. Both NPS and BLM agreed with the recommendations.

                                        Hawaiian Artifacts Trafficker
                                        Sentenced To Confinement
                                            Daniel Taylor was sentenced to 11 months of confinement and
                                        12 months of supervised release for his role in the theft and traf-
                                        ficking of Hawaiian artifacts. Taylor and his accomplice, John
                                        Carta, had removed artifacts (e.g., wooden bowls, gourds, a spear,
                                        and cordage) from a burial site on the Big Island of Hawaii and
                                        subsequently attempted to sell them through Taylor’s antique shop,
                                        as well as through Internet outlets. These items have been repatri-
                                        ated in keeping with the Native American Graves Protection and
                                        Repatriation Act. The OIG first reported on this in the April 2006
                                        Semiannual Report to the Congress.




26   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                         Back To Toc
                        Significant Audits, Evaluations, and Investigations




      Contractor Pleads Guilty
      to Attempted Bribery
          David Vega, owner and operator of Automated Office and Industrial
      Systems, was awarded a non-competitive bid to install auditorium
      seating at the Chamizal National Memorial on May 31, 2001. At the
      time of the award, the contract amount for the work had not been
      determined by Vega.

          After several meetings with an NPS employee, who was also a
      cooperating witness in the investigation, Vega bribed the employee to
      give Vega information pertaining to how much NPS budgeted for the
      project. Vega promised they could split the difference between his
      contract bid and the maximum budget approved by NPS. Vega and the
      employee negotiated an amount of $5,000 for exchange of proprietary
      government information.

          Vega was indicted on July 12, 2006, and charged with government
      contract kickbacks, bribery of a public official, and illegal gratuity to a
      public official.

           On April 3, 2007, Vega entered into a plea agreement in the Federal
      District Court in the Western District of Texas and pled guilty to gov-
      ernment contract kickbacks. He was sentenced to 1 year of probation,
      ordered to complete 100 hours of community service, and required to pay
      a fine of $2,500. The OIG is pursuing debarment of Vega’s company.

      Indictment Handed Down in
      False Surety Bond Scheme
          On June 19, 2007, a federal grand jury in Phoenix, AZ, returned a
      29-count indictment against Ernest Robert McFarland, 66, of Fort
      Meyers, FL, and Wayne George Heidle, 53, of La Habra, CA. They were
      charged with conspiracy, false claims, mail fraud, and false statements.

          The investigation began on April 14, 2004, based on information
      received from NPS, and was conducted jointly with the FBI. From
      2002 through 2004, McFarland, as Pacific General Inc.’s (PGI) owner
      and president, and Heidle, as PGI’s vice president, is alleged to have
      conspired and fraudulently obtained federal construction contracts worth
      approximately $6.9 million in Grand Canyon National Park and Lake
      Mead National Recreation Area.




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007              27
                                                             Back To Toc
                                             They accomplished this by submitting allegedly false charges
                                        to the government for surety bonds totaling approximately $86,644
                                        and allegedly falsely certifying that PGI was paying its subcontrac-
                                        tors for project work. PGI had difficulty obtaining surety bonds
                                        at the time, and the false bond charges helped conceal the fact that
                                        PGI did not bond the construction projects at the Grand Canyon
                                        and Lake Mead.

                                            PGI defaulted on many of the construction projects, which
                                        were left incomplete and in a dilapidated condition. Completion of
                                        the defaulted projects is expected to cost NPS millions of dollars
                                        above and beyond the original projected costs.

                                            A trial in the U.S. District Court before Judge Neil V. Wake
                                        is pending.

                                        Critical Point Evaluation
                                        Completed For National
                                        Park Centennial Initiative
                                            The National Park Centennial Initiative is a proposed effort that
                                        calls for $1 billion over 10 years to strengthen basic park
                                        operations, and create a public-private funding vehicle of up to
                                        $2 billion for new projects and programs with the goal of a $100
                                        million public-private match each year for 10 years. At the
                                        Secretary’s request, the OIG conducted a Critical Point Evaluation




28   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                          Back To Toc
                       Significant Audits, Evaluations, and Investigations




of the NPS Centennial Initiative. This provided the Secretary and the
NPS with real time information regarding the effectiveness of program
implementation and planning efforts. The OIG made two key recommen-
dations. It advised creation of an autonomous advisory board to
independently review and approve requests for distribution of federal
funds to “match” private sector monies. It also proposed the development
of a detailed business plan to ensure NPS has the necessary processes in
place to implement this important effort successfully. The NPS is
working to implement these suggestions in order to ensure accountability
and transparency for the Centennial Initiative. Future critical point
evaluations will review progress and offer additional suggestions for this
ambitious program.




                                                                 Heilemann/DOI




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007           29
                                                         Back To Toc
     Significant Audits, Evaluations, and Investigations
                    Office of Insular Affairs




                                                                              Heilemann/DOI




30   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                        Significant Audits, Evaluations, and Investigations




     American Samoa Lt. Governor
     and Territorial Senator
     Indicted By Federal Grand Jury
         On September 6, 2007, Lieutenant Governor Aitofele T.F. Sunia
     and Territorial Senator Tini Lam Yuen, of the U.S. Territory of
     American Samoa, were indicted by a federal grand jury in the
     District of Columbia. The indictment charges Sunia, who was the
     treasurer of American Samoa at the time of the alleged crimes, and
     Lam Yuen with one count of conspiracy, one count of fraud, one count
     of bribery concerning programs receiving federal funds, and one count
     each of obstruction of an agency proceeding. Lam Yuen was charged
     with an additional count of bribery pertaining to programs receiving
     federal funds.

         The defendants allegedly avoided the competitive bidding process
     by splitting a large school furniture construction project among compa-
     nies owned and operated by the defendants, as well as a third company
     owned by the chief procurement officer at that time.

         The defendants also allegedly conspired to structure invoices and
     procurement paperwork to create the false appearance that the
     projects comprised dozens of small contracts less than the $10,000
     threshold for competitive public bidding. Together, during a 3-year
     period, the alleged co-conspirators managed projects worth collectively
     more than $775,000.

        The investigation involved the OIG, the FBI, and the U.S.
     Department of Education OIG. The case is being prosecuted by DOJ.

     Oversight Failure Jeopardized
     Saipan Public Health Facility
          As one of the largest and most significant capital improvement
     projects underway in the Commonwealth of the Northern Mariana
     Islands (CNMI), the construction of the Saipan Public Health Facil-
     ity initially offered hope to many CNMI citizens. However, oversight
     failures by the Office of Insular Affairs (OIA), particularly in the
     arena of design and construction, now threaten to undermine success-
     ful completion and operation of the facility. The facility is critical to
     improving health care on the islands, especially because of the need
     for hemodialysis equipment by CNMI citizens suffering from kidney
     dysfunction. Also, the $17.6 million facility is essential to improving
     CNMI’s economic future.



Semiannual Report to the Congress - April 1, 2007 - September 30, 2007           31
                                                                Back To Toc
                                              Because of its cost and significance to CNMI citizens, the
                                          health facility project merited close scrutiny to help to ensure its
                                          success. However, OIA failed to heed obvious red flags indicating
                                          serious project management problems.

                                              From the outset, it was apparent that CNMI’s Department of
                                          Public Works lacked the experience and expertise to contract for
                                          and manage a project of this size. Warning signs, such as costly
                                          contract modifications, ballooning construction costs, and unnec-
                                          essary delays, should have prompted OIA to step up its oversight.
                                          OIA also failed to follow up on two reports issued by the U.S.
                                          Army Corps of Engineers in 2003 and 2005, which identified the
                                          seriousness of contract management deficiencies stemming from
                                          CNMI’s lack of contracting expertise.
                           Balestra/OIG
                                               Throughout the troubled 10-year history of this project, OIA did
                                          not use the tools at its disposal to keep the project on target. For
                                          example, OIA did not use its competitive allocation system, devel-
                                          oped specifically to link performance with insular area funding, or
                                          impose sanctions allowed under the Code of Federal Regulations.
                                          Instead OIA allocated funds as usual and lauded CNMI’s “ability to
                                          effectively manage infrastructure grants” in its 2006 budget
                                          justifications to Congress.

                                              The OIG made four recommendations to help OIA improve
                                          CNMI’s contracting performance and results. OIA has already
                                          implemented one recommendation and has referred the remaining
                                          three to the Assistant Secretary for Policy, Management, and
                                          Budget so that implementation can be tracked.

                                              The OIG also issued a report to the Governor of CNMI,
                                          describing opportunities to significantly improve CNMI’s
                                          contracting performance and results.

                                          Improvements Needed For
                                          Procurement and Leasing
                                              As the landlord and procurer of private space for government
                                          agencies, the Department of Property and Procurement (DP&P) did
                                          not act in the best interest of the Government of the Virgin Islands.
                                          The financial impact of DP&P’s failure to maximize leases of
                                          government-owned property and minimize the need for the
                                          government to lease privately owned property is substantial.
                                          Nearly $1 million in rental revenues were lost, and more than




32   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                         Back To Toc
                       Significant Audits, Evaluations, and Investigations




      $2 million in rental revenues were uncollected, while nearly $6 million
      in revenues could have been saved or spent more wisely.

           The OIG noted, for example, that DP&P did not pursue opportuni-
      ties to purchase privately owned space currently being rented to house
      government agencies. In one such instance at the time of the OIG
      review, the government had already paid more than $3 million in lease
      payments that could have been applied toward the $4.2 million asking
      price for the property.

          These lost opportunities, as well as instances of mismanagement
      (e.g., failure to encourage payment agreements for seriously delinquent
      tenants and failure to file proof of government claims against bankrupt-
      cy cases), collectively point to the need for DP&P to aggressively use
      and tighten existing lease administration procedures.

          The OIG also noted that the Department of Public Works, despite
      repeated overtures from DP&P, has not met the mandate of the legisla-
      ture to develop cost estimates for repairing and reclaiming abandoned
      government property, an essential step in reducing the amount of annual
      rent paid for office space.

           The Acting Governor of the Virgin Islands concurred with the
      OIG’s six recommendations to improve the ability of DP&P to manage
      real property in a way that financially benefits the government.

      Progress Made in Compact Sector
      Oversight and Training
          DOI, through its Office of Insular Affairs (OIA), needs to
      aggressively address the identified control, compliance, and financial
      accountability problems in U.S. government funded Compact and other
      federal grant programs provided to and managed by the Insular Areas
      governments. This includes the identified Compact cash management
      and acountability problems for the State of Chuuk, Federated States of
      Micronesia, and Compact questioned costs and compliance, as well as
      internal control findings, as reported for the Federated States of Micro-
      nesia and the Republic of the Marshall Islands. The OIG has regularly
      reported on such issues and suggested corrective actions necessary
      to improve oversight of U.S. government funded Compact and other
      federal grant programs.

          The OIG continues with its outreach capacity-building activities.
      This training improves auditor skills needed to evaluate U.S. grant
      funds use and program accomplishments, as well as the related ac-
      counting systems, controls, and reporting processes. The OIG provided



Semiannual Report to the Congress - April 1, 2007 - September 30, 2007            33
                                                            Back To Toc
                                         stateside on-the-job training in Denver, CO, and Albuquerque, NM,
                                         for four auditors from the Public Auditor Offices of the Government
                                         of Guam, Federated States of Micronesia, and CNMI. In addition,
                                         onsite training in government revenue inspections and audit super-
                                         visory techniques was provided to Public Auditor staff to improve
                                         local audit coverage and report productivity.

                                         Contractor Indicted
                                            Ashley Andrews, a principal of Global Resources Management
                                        (GRM), was indicted on April 4, 2007, on six counts of suborna-
                                        tion of perjury for persuading Kenneth Andrews to testify falsely
                                        during his trial. Alicia Hansen, former Virgin Islands senator, was
                           Balestra/OIG indicted on May 3, 2007, on four counts of perjury and one count of
                                        false declarations before a grand jury or court. She provided a false
                                        declaration on an official government form in an attempt to obtain
                                        a court appointed attorney. Her perjury charges resulted from her
                                        providing false testimony during her trial.

                                              GRM was awarded a large contract for federally mandated
                                         sewer repairs to a St. Croix public sewer system, which was in a
                                         state of extreme disrepair and which caused serious environmental
                                         hazards. The contract was awarded without bid through the Virgin
                                         Islands Department of Public Works.

                                              The Virgin Islands U.S. Attorney’s Office filed a restraining or-
                                         der and the governor subsequently cancelled the project. The DOI-
                                         OIG and the FBI commenced a joint investigation, which revealed
                                         that GRM was a start-up, for-profit corporation possessing no assets
                                         or sewer repair experience, and whose president was a special
                                         assistant to the Virgin Islands governor.

                                         Lottery Failure Leads
                                         To Lost Revenues
                                              The Virgin Islands Lottery had virtually no control over Video
                                         Lottery Terminal (VLT) operations, a condition that has deprived
                                         the Virgin Islands government of lottery-related revenues and taxes
                                         to which it was entitled. The OIG conservatively estimated
                                         unrealized revenues for the 3-year audit period at nearly $9 million
                                         in lost personal income and gross receipts taxes, underpaid gaming
                                         proceeds, and unpaid license fees and interest. The OIG could not




34   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                      Back To Toc
                       Significant Audits, Evaluations, and Investigations




      determine the extent of unrealized revenues because essential financial
      data was not maintained by the Virgin Islands Lottery.

          Increasing government revenues was a primary motivation for
      allowing video gaming. VLTs were expected to garner annual rev-
      enues of about $15 million and allow the government to implement or
      supplement programs to improve the economy and quality of life for
      residents. Instead, Southland Gaming controls every aspect of Virgin
      Island gaming.

          Of primary concern is the lottery’s failure to oversee VLT opera-
      tions and retailer accounts and to implement standard gaming proto-
      cols at critical points of VLT operations, from equipment installation
      and testing to revenue collection.

           For example, without lottery participation or oversight, SGVI
      downloads data from VLTs on the amount of cash gambled and won
      by customers. It then distributes net VLT revenues among the lottery,
      Southland Gaming, and retailers. Without a verification protocol, the
      lottery must accept at face value the revenue data presented by
      Southland Gaming.

          The lack of protocols compromises the integrity of VLT
      operations, jeopardizes public confidence and trust in video gaming,
      and increases the risk of fraud and abuse of gaming revenues.

          The OIG made 11 recommendations to improve lottery effective-
      ness and thereby ensure the government receives the revenues and
      taxes to which it is entitled. The governor concurred with the report
      recommendations. He has already implemented corrective actions for
      nine of the recommendations and is in the process of implementing
      corrective actions for the other two recommendations.




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007          35
                                                          Back To Toc
     Significant Audits, Evaluations, and Investigations
                   U.S. Fish And Wildlife Service




                                                                              Johnson/FWS




36   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                       Significant Audits, Evaluations, and Investigations




      State Grant Audits Identify
      Questionable Costs
           Audits of FWS grants awarded to eight states and the CNMI revealed
      a potential savings of $3,011,197. The grants are awarded under the
      Federal Assistance Program for State Wildlife and Sport Fish Restoration
      (Federal Assistance Program). Grants finance as much as 75 percent of
      state-sponsored projects. These may include developing sites for boating
      access or acquiring and managing natural habitats.

        A summary of the significant issues disclosed in the audits follows.
      FWS is working with the audited entities to resolve these matters.

      u	 Questioned Costs. Five of the audits questioned a total of
         $3,011,197 in costs claimed for unsupported expenses, unallowable
         activities, unallowable costs, and expenses incurred outside the
         grant period.

      u	 Licensing. Three of the audits identified licensing as a significant
         issue. Two significant deficiencies noted during the audits included
         the following: (1) the inability to demonstrate that the state used
         hunting and fishing license revenues only for the administration of
         the state fish and wildlife agency, as required under federal regulation
         and (2) inaccurate license counts due to state failure to account for
         duplicate license holders and licensees no longer holding
         valid licenses.

      u	 Program Income. Six of the audits identified program income as
         a significant issue. Two of these six audits found that the audited
         entity did not report some or all of program income from barter trans-
         actions on lands managed and maintained with Federal Assistance
         Program funds.

      u	 Personal and Real Property. Two of the audits identified the lack
         of control over personal property as a significant issue, and one of
         the audits identified the lack of control over real property as a
         significant issue.

      u	 Indirect Cost Rate. Four of the audits identified deficiencies such
         as using the incorrect indirect cost rate in the accounting for indirect
         costs incurred under the grants.




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007              37
                                                           Back To Toc
                                       Safety Issues Audited at Jackson
                                       National Fish Hatchery
                                           The Jackson National Fish Hatchery was established to raise endan-
                                       gered species of trout for restocking in Idaho and Wyoming. Hatchery
                                       buildings for fish production activities and equipment storage were
                                       condemned and closed to the public in September 2000 after a seismic
                                       evaluation revealed significant structural deficiencies. Additionally,
                                       roof collapse warnings have been issued since the buildings were not
                                       designed to withstand the heavy Wyoming snows. Despite these safety
                                       issues, FWS and U.S. Geological Survey (USGS) employees contin-
                                       ued to work in the unsafe buildings. We recommended that FWS take
                                       immediate action to protect the employees and that new buildings be
                           Moyle/OIG   constructed. FWS concurred and subsequently moved the employees
                                       out of the buildings. A new hatchery should be completed in 2009.




38   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                  Back To Toc
                     Significant Audits, Evaluations, and Investigations




                                                             Johnson/FWS




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007     39
     Significant Audits, Evaluations, and Investigations
                    U.S. Geological Survey




40   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                       Significant Audits, Evaluations, and Investigations




      USGS Employee Indicted For
      Wire Fraud After Faking Illness
          Robert Thom, a USGS IT specialist in San Diego, CA, was
      arrested on August 23, 2007, and indicted on September 6, 2007,
      by a Federal Grand Jury in the U.S. District Court for the Eastern
      District of California on 10 counts of wire fraud. Thom allegedly
      submitted false and forged documents to the USGS, claiming that
      he suffered from a malignant brain tumor. He did this in order to
      apply for and receive 995 hours of annual leave from the Federal
      Voluntary Leave Transfer Program.

          Misled by Thom’s false medical documents, the USGS placed
      Thom on its national donation list from December 14, 2006, through
      August 23, 2007, so that Thom could receive donations of annual
      leave from all USGS employees. Thirty USGS employees, includ-
      ing 10 outside of California, donated their annual leave, worth
      $40,550, so that Thom could continue to receive his federal salary
      and benefits.

      Embezzler Pleads Guilty
          On June 19, 2007, Sylvia McClain pleaded guilty in the North-
      ern District of Georgia to one count of knowingly and willfully
      embezzling, stealing, purloining, or converting to her own use U.S.
      money valued at more than $1,000. On September 7, 2007, she was
      sentenced to 6 months of home confinement and 5 years of
      probation. She was ordered to pay $30,930 in restitution.

           An administrative officer at the Atlanta USGS office, Mc-
      Clain became the subject of an investigation following a regularly
      scheduled OIG audit. The audit uncovered her receipt of excessive
      payments for overtime, travel, and tuition reimbursement, which she
      justified by forging and otherwise falsifying documents. McClain’s
      submission of false overtime, travel reimbursement, and tuition
      reimbursement claims cost USGS more than $34,500.

          Eligible for retirement at the time of the investigation, McClain
      exercised that option as soon as she became aware she was being
      investigated.

          The DOI-OIG issued USGS a management advisory. This
      pointed to inadequate management oversight and internal controls as
      the reason why McClain’s activities went undetected for 5 years.




Semiannual Report to the Congress - April 1, 2007 - September 30, 2007        41
                                                             Back To Toc
     Significant Audits, Evaluations, and Investigations
                    Appendices




                                                                              Johnson/FWS
42   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                         Appendix One




Summary of Audit and Related Activities
From April 1, 2007, Through September 30, 2007

     Audits and Related Activities Performed by:

	                                 OIG Staff	                  OIG Single Audit Staff
	                       Audits/Verifications   Evaluations	   Quality Control Reviews	      Total
Reports Issued To


    Department/Office        7	                        2	             3	                       12
    of the Secretary


    Fish and Wildlife       18	                       2	              0	                        20
    and Parks



    Indian Affairs           3	                       0	              0	                        3




    Insular Affairs          4	                        1	             0	                         5




    Land and Minerals        4	                        0	             0	                         4
    Management


    Water and Science        1	                        0	             0	                         1




Total Reports Issued       37	                        5	              3	                       45




                              Semiannual Report to the Congress - April 1, 2007 - September 30, 2007    43
                                                                                  Back To Toc
 Appendix Two



     Reports Issued During the 6-Month
     Period That Ended September 30, 2007
     This listing includes all audit-related reports (performance audits, financial audits, evaluations, contract and
     grant audits, verification reviews, and single audit quality assurance reviews) issued during the 6-month period
     that ended September 30, 2007. It provides report number, title, issue date, and monetary amounts identified in
     each report (*Funds To Be Put To Better Use, **Questioned Cost, ***Unsupported Cost, ****Lost or
     Potential Additional Revenues, and *****Wasted Funds).

     Performance Audits, Financial Audits,
     Evaluations, and Verification Reviews
     Bureau of Indian Affairs

     X-IN-BIA-0003-2007	             Management Letter Concerning Issues Identified During the Audit of the
                                     Indian Affairs Financial Statements for Fiscal Years 2006 and 2005
                                     (05/03/2007)

     C-IN-BIA-0008-2007	             Flash Report - Bureau of Indian Affairs and Bureau of Indian Education:
                                     Schools in Need of Immediate Action (05/31/2007)

     C-VS-BIA-0016-2007	             Verification Review of the Implementation of Twelve Recommendations
                                     Contained in the Audit Report, Bureau of Indian Affairs, Office of Indian
                                     Education Programs, Central Office Administrative Funds (No. C-IN-BIA-
                                     0007-2003) (09/28/2007)

     Bureau of Land Management

     W-FL-BLM-0007-2004	             Proposed Changes to Management of the Southern Nevada Public Land
                                     Management Act Costs May Improve Fund Accountability (04/05/2007)
                                     *$173,000

     W-FL-BLM-0083-2004	             Use of Land Sale Revenues Resulting From the Southern Nevada Public
                                     Land Management Act (04/05/2007)

     C-IN-BLM-0012-2007	             Flash Report - Environmental, Health and Safety Issues at Bureau of Land
                                     Management Ridgecrest Field Office Rand Mining District, CA (09/12/2007)

     Bureau of Reclamation

     C-VS-BOR-0014-2007	             Verification Review of the Six Recommendations Contained in the Audit
                                     Report, Concessions Managed by the Bureau of Reclamation (No. 00-I-376)
                                     (08/20/2007)

     departmental offices

     X-IN-OSS-0004-2007	             Management Letter Concerning Issues Identified During the Audit of Depart-
                                     mental Offices Fiscal Years 2006 and 2005 Financial Statements (04/26/2007)


44   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                          Back To Toc
                                                                                           Appendix Two


Multi-Office Audits

W-IN-MOA-0008-2005	    Private Uses of Public Lands, National Park Service and Bureau of Land
                       Management (04/10/2007) *$2,600,000

X-IN-MOA-0006-2007	    Management Letter Concerning Issues Identified During the Audit of the
                       Department of the Interior Financial Statements For Fiscal Years 2006 and
                       2005 (04/26/2007)

W-EV-MOA-0006-2006	    Tribal Successes: Protecting the Environment and Natural Resources
                       (05/01/2007)

C-IN-MOA-0002-2006	    Department of the Interior Internal Control Program (08/09/2007)

X-IN-MOA-0022-2007	    Independent Accountants’ Report on Applying Agreed-Upon Procedures for
                       Intragovernmental Activity and Balances for Fiscal Year 2007 (09/13/2007)

Y-EV-MOA-0002-2007	    Management Advisory - Department of the Interior Purchase and Fleet
                       Card Administration (09/24/2007)

Y-IN-MOA-0011-2007	    Attestation of the National Business Center GovWorks Acquisition
                       Office (09/25/2007)

X-IN-MOA-0020-2007	    Independent Accountants’ Report on Applying Agreed-Upon Procedures
                       Submitted to the Office of Personnel Management (9/28/2007))

National Park Service

B-EV-NPS-0011-2007	    DC Water and Sewer Payments Second Quarter (05/11/2007)

C-IN-NPS-0007-2007	    Flash Report - National Park Service: Hazardous Condition of Yosemite’s
                       Wawona Tunnel Endangers Lives (06/20/2007)

Y-CP-NPS-0006-2007	    Critical Point Evaluation - National Park Service Centennial Initiative
                       (08/20/2007)

B-EV-NPS-0012-2007	    DC Water and Sewer Payments Third Quarter (09/06/2007)

u.s. fish and wildlife service

C-IN-FWS-0009-2007	    Flash Report - Fish and Wildlife Service: Jackson National Fish Hatchery in
                       Need of Immediate Action (05/08/2007)

X-IN-FWS-0009-2007	    Management Letter Concerning Issues Identified During the Audit of the Fish
                       and Wildlife Service Financial Statements for Fiscal Years 2006 and 2005
                       (8/14/07)

X-IN-FWS-0020-2006	    Independent Auditors’ Report on the U.S. Fish and Wildlife Service
                       Financial Statements for Fiscal Years 2006 and 2005 (08/14/2007)



                      Semiannual Report to the Congress - April 1, 2007 - September 30, 2007          45
                                                                                  Back To Toc
 Appendix Two



     W-VS-FWS-0005-2007	         Verification Review of Four Recommendations Considered Implemented From
                                 the November 1999 Audit Report Miscellaneous Receipts of the U.S. Fish
                                 and Wildlife Service (No. 00-I-50) (09/14/2007)

     Virgin Islands

     V-EV-VIS-0002-2007	         Verification of Watch Quota and Jewelry Quota Data for Calendar Year 2006
                                 Submitted by Firms Located in the U.S. Virgin Islands (05/09/2007)

     V-IN-VIS-0002-2005	         Management of Real Property, Government of Virgin Islands (05/18/2007)
                                 *$5,959,625; ****$3,096,423

     V-IN-VIS-0004-2005	         Controls Over Video Lottery Terminal Operations, Government of Virgin
                                 Islands (06/08/2007) ****$3,746,000

     Contract and Grant Audits
     Bureau of Land Management

     W-CX-BLM-0003-2007	         Review of Claims Submitted by Southern Oregon Ecological Under
                                 Bureau of Land Management Contract No. HAC027Y00 (05/17/2007)

     National Park Service

     Q-CX-NPS-0004-2006	         Audit of Costs Claimed by TDT Construction LLC under the National Park
                                 Service Contract No. 1443C7140040001 (07/26/2007) **$159,692

     K-CX-OIG-0010-2005	         Costs Claimed by Sharks and Sharks General Contractors, Inc., Under
                                 National Park Service Contract No. C6068030005 for Construction Work
                                 at the Ulysses S. Grant National Historic Site (08/22/2007) **$158,623;
                                 ***$572,480

     W-CX-NPS-0004-2007	         Audit of National Park Service Contract No. C2350040050 With the
                                 University of California at Davis (09/20/2007)

     U.S. Fish and Wildlife Service

     R-GR-FWS-0023-2005	         U.S. Fish and Wildlife Service Federal Assistance Program Grants Issued to
                                 the Commonwealth of the Northern Mariana Islands, Department of Lands
                                 and Natural Resources, From October 1, 2002, Through September 30, 2004
                                 (04/03/2007) ***$129,083

     R-GR-FWS-0015-2005 	        U.S. Fish and Wildlife Service Federal Assistance Program Grants
                                 Awarded to the State of Maine, Department of Marine Resources, From
                                 January 1, 2004, Through December 31, 2005 (04/12/2007) **$1,632

     R-GR-FWS-0001-2007	         U.S. Fish and Wildlife Service Federal Assistance Program Grants Awarded
                                 to the State of Kansas, Department of Wildlife and Parks, From July 1, 2004,
                                 Through June 30, 2006 (05/02/2007)


46   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                   Back To Toc
                                                                                           Appendix Two



R-GR-FWS-0008-2005	       U.S. Fish and Wildlife Service Federal Assistance Program Grants Awarded
                          to the Commonwealth of Pennsylvania Game Commission From July 1, 2002,
                          Through June 30, 2004 (05/31/2007) ***$1,760,000

R-GR-FWS-0026-2005	       U.S. Fish and Wildlife Service Federal Assistance Program Grants Awarded
                          to the State of Arizona, Department of Game and Fish, From July 1, 2003,
                          Through June 30, 2005 (06/05/2007) **$911,540

R-GR-FWS-0004-2007	       U.S. Fish and Wildlife Service Federal Assistance Program Grants Awarded to
                          the State of Mississippi, Department of Marine Resources, From July 1, 2004,
                          Through June 30, 2006 (06/06/2007)

R-GR-FWS-0002-2007	       U.S. Fish and Wildlife Service Federal Assistance Program Grants Awarded to
                          the State of Washington, Department of Fish and Wildlife, From July 1, 2004,
                          Through June 30, 2006 (07/27/2007) ***$211,339

R-GR-FWS-0003-2007	       U.S. Fish and Wildlife Service Federal Assistance Program Grants Awarded to
                          the Nebraska Game and Parks Commission, From July 1, 2004, Through
                          June 30, 2006 (09/19/2007)

R-GR-FWS-0008-2007	       U.S. Fish and Wildlife Service Federal Assistance Program Grants Awarded to
                          the State of Mississippi, Department of Wildlife, Fisheries, and Parks, From
                          July 1, 2004, Through June 30, 2006 (09/21/2007)

Northern Mariana Islands

P-GR-NMI-0003-2005	       Evaluation of Saipan Public Health Facility Project: Oversight of Capital
                          Improvement Projects, Commonwealth of the Northern Mariana Islands
                          (06/08/2007)

P-GR-NMI-0004-2005 	      Evaluation of Office of Insular Affairs Oversight of Capital Improvement
                          Projects, Commonwealth of the Northern Mariana Islands (06/08/2007)
                          **$1,240,144

Single Audit Quality Control Reviews
B-QC-MOA-0008-2007	       Breazeale, Saunders & O’Neil Audit of the Mississippi Band of Choctaw
                          Indians for the Fiscal Year Ended September 30, 2005 (07/17/2007)

B-QC-MOA-0011-2007	       Freed Maxick & Battaglia Audit of the Cayuga Nation for the Fiscal Year
                          Ended September 30, 2005 (08/03/2007)

B-QC-MOA-0013-2007	       Tate & Tryon Audit of Wolf Trap Foundation for the Performing Arts for the
                          Fiscal Year Ended December 31, 2005 (09/28/2007)




                       Semiannual Report to the Congress - April 1, 2007 - September 30, 2007            47
                                                                                  Back To Toc
 Appendix Three




     Monetary Impact of Audit and Evaluation Activities
     From April 1, 2007, Through September 30, 2007
     Activity		          Questioned Costs*	               Funds To Be Put 	    Potential 	       Total
     	        	                  	                        To Better Use	       Additional	
     	        	                  	                               	             Revenue

     U.S. Fish
     and Wildlife
     Service	 	               $3,013,594	                        0	                0	          $3,013,594

     Insular
     Affairs	                 $1,240,144	                    $5,959,625	      $6,842,423	     $14,042,192
     Multi-
     Office	                       0	                        $2,600,000	           0	          $2,600,000

     National
     Park
     Service	                  $890,795	                         0	                0	           $890,795


     Bureau of
     Land
     Management	                   0	                         $173,000	            0		 $173,000

     Total	                  $5,144,533	                     $8,732,625	      $6,842,423	    $20,719,581




      *Unsupported costs are included in questioned costs.




48   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                        Back To Toc
                                                                                       Appendix Four




Non-Federal Funding Included in Monetary Impact
of Audit Activities During the 6-Month Period That
Ended September 30, 2007
V-IN-VIS-0002-2005	   Management of Real Property, Government of the Virgin Islands, dated
                      May 18, 2007, identified $9,056,048 as the monetary impact consisting of
                      $5,959,625 of funds to be put to better use and $3,096,423 potential additional
                      revenues. All funds were Insular funds.

V-IN-VIS-0004-2005	   Controls Over Video Lottery Terminal Operations, Government of the Virgin
                      Islands, dated June 8, 2007, identified $3,746,000 as the monetary impact
                      consisting of $3,746,000 potential additional revenues. All of the funds were
                      Insular funds.




                      Semiannual Report to the Congress - October 1, 2006 - March 31, 2007              49
                                                                             Back To Toc
     Appendix Five



     Audit and Evaluation Resolution Activities
     Table I: Inspector General Reports With Questioned Costs*


     	     	                                        Number of Reports	   Questioned Costs	     Unsupported Costs


     A.	   For which no management
     	     decision had been made by the
     	     commencement of the reporting
     	     period.	                                         31	            $13,005,710	           $5,752,052

     B.	 Which were issued during the
     	 reporting period.	                                    8	             $5,144,533	           $2,672,902

     	     	   Total (A+B)	                                 39	            $18,150,243	           $8,424,954

     C.	 For which a management decision
     	 was made during the reporting
     	 period. 	                                             4	             $1,875,323	           $1,789,120

     		        (i) Dollar value of
     		        recommendations that
     		        were agreed to by
     		        management. 	                                 4	             $1,875,323	           $1,789,120

     		        (ii) Dollar value of
     		        recommendations that
     		        were not agreed to by
     		        management. 	                                 0	                      0	                    0

     D.	 For which no management
     	 decision had been made by the
     	 end of the reporting period. 	                       35	            $16,274,920	           $6,635,834

     E. 	 For which no management
     	 decision was made within
     	 6 months of issuance. 	                              30	            $13,312,929	           $5,722,932




     *Unsupported costs are included in questioned costs.




50   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                             Back To Toc
                                                                                     Appendix Five



Audit and Evaluation Resolution Activities
Table II: Inspector General Reports With
Recommendations That Funds Be Put To Better Use

	     	                                     Number of Reports	                Dollar Value


A.	   For which no management
	     decision had been made by the
	     commencement of the reporting
	     period.	                                     19	                       $29,586,414

B.	 Which were issued during the
	 reporting period. 	                                2	                       $2,773,000

	     	   Total (A+B)	                             21	                       $32,359,414

C.	 For which a management decision
	 was made during the reporting period. 	            5	                       $4,147,535

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 	              4	                       $3,509,331

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 	          1	                         $638,204

D.	 For which no management decision
	 had been made by the end of the
	 reporting period. 	                              16	                       $28,211,879

E.	 For which no management decision
	 was made within 6 months of issuance. 	          14	                       $25,438,879




                               Semiannual Report to the Congress - October 1, 2006 - March 31, 2007   51
                                                                                   Back To Toc
 Appendix Five



     Audit and Evaluation Resolution Activities
     Table III: Inspector General Reports
     With Lost or Potential Additional Revenues

     	     	                                     Number of Reports	           Dollar Value


     A.	   For which no management
     	     decision had been made by
     	     the commencement of the
     	     reporting period.	                             4	                  $92,410,640

     B.	 Which were issued during the
     	 reporting period. 	                                0	                           0

     	     	   Total (A+B)	                               4	                  $92,410,640

     C.	 For which a management decision
     	 was made during the reporting period. 	            1	                  $52,085,000

     	 (i)	 Dollar value of recommendations
     		 that were agreed to by management. 	              1	                  $52,085,000

     	 (ii)	 Dollar value of recommendations
     		 that were not agreed to by management. 	          0	                           0

     D.	 For which no management decision
     	 had been made by the end of the
     	 reporting period. 	                                3	                  $40,325,640

     E.	 For which no management decision
     	 was made within 6 months of issuance. 	            3	                  $40,325,640




52   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                               Back To Toc
                                                                                               Appendix Five



Audit and Evaluation Resolution Activities
Table IV: Inspector General Reports
With Wasted Funds

	     	                                     Number of Reports	                        Dollar Value


A.	   For which no management
	     decision had been made by
	     the commencement of the
	     reporting period.	                             2	                       $28,856,706

B.	 Which were issued during the
	 reporting period. 	                                0	                                    0

	     	   Total (A+B)	                               2	                       $28,856,706

C.	 For which a management decision
	 was made during the reporting period. 	            0	                                    0

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 	              0	                                    0

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 	          0	                                    0

D.	 For which no management decision
	 had been made by the end of the
	 reporting period. 	                                2	                       $28,856,706

E.	 For which no management decision
	 was made within 6 months of issuance. 	            2	                       $28,856,706




                              Semiannual Report to the Congress - April 1, 2007 - September 30, 2007           53
                                                                                  Back To Toc
 Appendix Six


     Summary of Audit and Evaluation Reports Over 6
     Months Old Pending Management Decisions at
     September 30, 2007
     This listing includes a summary of audit (performance, financial, contract (except pre-awards), and grant), and
     evaluation reports that were more than 6 months old on September 30, 2007, and still pending a management
     decision. It provides report number, title, issue date, number of unresolved recommendations, and unresolved
     amount of monetary benefits identified in the report.

     Performance Audits, Financial
     Audits, and Evaluations
     Bureau of Indian Affairs

     W-FL-BIA-0047-2002	             School Construction Program, Bureau of Indian Affairs (02/24/2004);
                                     1 Recommendation; $2,100,000 Unresolved

     C-IN-BIA-0015-2004	             Bureau of Indian Affairs Use of Facilities Improvement and Repair Funds
                                     (08/29/2005); 1 Recommendation; $10,200,000 Unresolved

     Multi-Office Audits

     X-IN-MOA-0018-2005	             Fiscal Year 2005 Department of the Interior Purchases Made on Behalf of the
                                     Department of Defense (01/09/2007); 3 Recommendations

     C-IN-MOA-0007-2005	             U.S. Department of the Interior Radio Communications Program
                                     (01/30/2007); 1 Recommendation; $35,456,000 Unresolved

     W-IN-MOA-0086-2004	             Proper Use of Cooperative Agreements Could Improve Interior’s Initiatives
                                     for Collaborative Partnerships (01/31/2007); 5 Recommendations

     National Park Service

     X-IN-NPS-0017-2006	             Independent Auditors’ Report on the National Park Service Financial
                                     Statements for Fiscal Years 2006 and 2005 (02/08/2007); 4 Recommendations

     Office of the Secretary

     X-IN-OSS-0016-2006	             Independent Auditors’ Report on the Departmental Offices Financial State-
                                     ments for Fiscal Years 2006 and 2005 (02/05/2007); 2 Recommendations

     Contract and Grants
     National Park Service

     2000-E-0607	                    Costs Billed By Harrison & Palmer, Inc., From April 1, 1996, Through June
                                     23, 1999, Under National Park Service Contract No. 143CX300094906
                                     (08/08/2000); 1 Recommendation; $52,703 Unresolved



54   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                         Back To Toc
                                                                                       Appendix Six


2000-E-0706	          Audit of Costs Billed by Southern Insulation, Inc., From November 21,
                      1994, Through June 1, 1999, Under National Park Service Contract No.
                      1443CX300094906 (09/29/2000); 1 Recommendation; $86,262 Unresolved

2001-E-0035	          Audit of Costs Billed by Callas Contractors, Inc., From January 1, 1997, Through
                      June 1, 1999, Under National Park Service Contract No. 1443CX300094906
                      (11/07/2000); 1 Recommendation; $16,425 Unresolved

2001-E-0036	          Audit of Costs Billed by Capitol Mechanical Contractors, Inc., From
                      January 1, 1997, Through June 1, 1999, Under National Park Service
                      Contract No. 1443CX300094906 (11/07/2000); 1 Recommendation;
                      $98,194 Unresolved

2001-E-0244	          Audit of Costs Billed by E.M.S. Consultants, Inc., From May 1, 1996, Through
                      June 1, 1999, Under National Park Service Contract No.1443CX300094906
                      (02/27/2001); 1 Recommendation; $327,330 Unresolved

2001-E-0336	          Audit of Costs Billed By JCM Control Systems, Inc., From January 1,
                      1994, Through July 16, 1999, Under National Park Service Contract No.
                      1443CX300094906 (04/23/2001); 1 Recommendation; $109,865 Unresolved

U.S. Fish and Wildlife Service

R-GR-FWS-0029-2003	   U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                      the State of Washington, Department of Fish and Wildlife, From July 1, 2000,
                      Through June 30, 2002 (03/31/2004); 1 Recommendation

R-GR-FWS-0025-2003	   U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                      State of New York, Department of Environmental Conservation, Division of Fish,
                      Wildlife, and Marine Resources, From April 1, 2000, Through March 31, 2002
                      (05/06/2004); 1 Recommendation

R-GR-FWS-0014-2004	   U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                      Commonwealth of Puerto Rico, Department of Natural and Environmental
                      Resources, From July 1, 2001, Through June 30, 2003 (09/19/2005);
                      9 Recommendations

R-GR-FWS-0008-2004	   U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                      State of Idaho, Department of Fish and Game, From July 1, 2001, Through
                      June 30, 2003 (09/30/2005); 15 Recommendations; $519,469 Unresolved

R-GR-FWS-0004-2005	   U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                      State of Illinois, Department of Natural Resources, From July 1, 2002, Through
                      June 30, 2004 (03/31/2006); 12 Recommendations; $553,977 Unresolved

R-GR-FWS-0018-2005	   U.S. Fish and Wildlife Service Federal Assistance Grants Awarded to the State
                      of Minnesota, Department of Natural Resources, Division of Fish and Wildlife,
                      From July 1, 2002, Through June 30, 2004 (02/01/2007); 3 Recommendations

R-GR-FWS-0004-2006	   U.S. Fish and Wildlife Service Federal Assistance Program Grants Awarded to
                      the State of Missouri, Department of Conservation, From July 1, 2003, Through
                      June 30, 2005 (02/23/2007); 1 Recommendation




                      Semiannual Report to the Congress - April 1, 2007- September 30, 2007              55
                                                                              Back To Toc
 Appendix Seven



     Summary of Performance Audit, Financial Audit, and
     Evaluation Reports More Than 6 Months Old
     Pending Corrective Action at September 30, 2007
     This is a listing of performance audits, financial audits, and evaluation reports more than 6 months
     old with management decisions for which corrective action has not been completed. It provides
     report number, title, issue date, and the number of recommendations without final corrective action.
     These audits and evaluations continue to be monitored by the Focus Leader for Management Control
     and Audit Follow-up, Assistant Secretary, Policy, Management, and Budget, for completion of
     corrective action.

     Bureau of Indian Affairs

     2003-I-0055	                 Evaluation of the Bureau of Indian Affairs’ Process to Approve Tribal Gaming
                                  Revenue Allocation Plans (06/11/2003); 3 Recommendations

     X-IN-BIA-0006-2005	          Independent Auditors’ Report on the Bureau of Indian Affairs’ Financial
                                  Statements for Fiscal Years 2005 and 2004 (12/20/2005); 1 Recommendation

     C-IN-BIA-0017-2005	          Bureau of Indian Affairs, Radio Communications Program (01/31/2007);
                                  6 Recommendations

     Bureau of Land Management

     1999-I-0808	                 Cultural Resource Management, Bureau of Land Management (09/03/1999);
                                  2 Recommendations

     C-IN-BLM-0013-2005	          Public Safety Issues at the Saginaw Hill Property Bureau of Land
                                  Management (03/15/2005); 1 Recommendation

     X-IN-BLM-0022-2006	          Independent Auditors’ Report on the Bureau of Land Management Financial
                                  Statements for Fiscal Years 2006 and 2005 (02/12/2007); 1 Recommendation

     X-IN-BLM-0007-2007	          Management Letter Concerning Issues Identified During the Audit of the
                                  Bureau of Land Management’s Financial Statements for Fiscal Years 2006 and
                                  2005 (02/26/2007); 1 Recommendation

     bureau of reclamation

     1999-I-0133	                 Audit Report on the Identification of Unneeded Acquired Lands (12/21/1998);
                                  1 Recommendation

     X-IN-BOR-0023-2006	          Independent Auditors’ Report on the Bureau of Reclamation Financial
                                  Statements for Fiscal Years 2006 and 2005 (02/12/2007); 1 Recommendation

     Departmental Offices
     E-IN-OSS-0058-2004	           Independent Auditors’ Report on the Departmental Offices’ Financial
                                   Statements for Fiscal Years 2004 and 2003 (12/06/2004); 1 Recommendation

56   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                 Back To Toc
                                                                                     Appendix Seven


E-EV-BIA-0063-2003	   Process Used To Assess Applications to Take Land Into Trust for Gaming
                      Purposes (09/01/2005); 2 Recommendations

X-IN-OSS-0016-2006	   Independent Auditors’ Report on the Departmental Offices Financial
                      Statements for Fiscal Years 2006 and 2005 (02/05/2007); 5 Recommendations

Minerals Management Service

X-IN-MMS-0010-2005	   Independent Auditors’ Report on the Minerals Management Service’s
                      Financial Statements for Fiscal Years 2005 and 2004 (12/08/2005);
                      1 Recommendation	

C-IN-MMS-0006-2006	   Minerals Management Service’s Compliance Review Process (12/05/2006);
                      3 Recommendations

Multi-Office Audits

1996-I-1267	          Inspection and Enforcement Program and Selected Activities, Bureau of Land
                      Management (09/30/1996); 1 Recommendation

C-IN-MOA-0042-2003	   Fleet Management Operations, U.S. Department of the Interior (02/09/2004);
                      1 Recommendation

A-IN-MOA-0004-2004	   Department of the Interior’s Use of Wireless Technologies (12/06/2004);
                      1 Recommendation

C-IN-MOA-0049-2004	   Department of the Interior Concessions Management (06/13/2005);
                      3 Recommendations

C-IN-MOA-0040-2004	   U.S. Department of the Interior Hazardous Materials Site Management
                      (08/22/2005); 1 Recommendation

X-IN-MOA-0011-2005	   Independent Auditors’ Report on the Department of the Interior’s Annual
                      Report on Performance and Accountability for Fiscal Year 2005 (11/15/2005);
                      4 Recommendations

W-IN-MOA-0002-2005	   Hazardous Fuels Reduction Program, Department of the Interior (04/17/2006);
                      5 Recommendations

E-EV-MOA-0017-2005	   Department of the Interior’s Gross Estimated Savings for FY 2004
                      Competitive Sourcing (06/23/2006); 1 Recommendation

X-IN-MOA-0018-2005	   Fiscal Year 2005 Department of the Interior Purchases Made on Behalf of the
                      Department of Defense (01/09/2007); 7 Recommendations

W-IN-MOA-0086-2004	   Proper Use of Cooperative Agreements Could Improve Interior’s Initiatives
                      for Collaborative Partnerships (01/31/2007); 2 Recommendations




                      Semiannual Report to the Congress - October 1, 2006 - March 31, 2007          57
                                                                                  Back To Toc
      Appendix Seven



     National Park Service
     1998-I-0406	                Follow-up of Recommendations Concerning Utility Rates Imposed by the
                                 National Park Service (04/15/1998); 5 Recommendations

     2002-I-0045	                Recreational Fee Demonstration Program - National Park Service and Bureau
                                 of Land Management (08/19/2002); 1 Recommendation

     C-IN-NPS-0013-2004	         The National Park Service’s Recording of Facility Maintenance Expenditures
                                 (01/26/2005); 2 Recommendations

     X-IN-NPS-0009-2005	         Independent Auditors’ Report on the National Park Service’s Financial
                                 Statements for Fiscal Years 2005 and 2004 (12/21/2005); 2 Recommendations

     P-IN-NPS-0074-2004	         Hawaii Volcanoes National Park: Improved Operations Should Enhance
                                 Stewardship and Visitor Experience (03/31/2006); 6 Recommendations

     X-IN-NPS-0017-2006	         Independent Auditors’ Report on the National Park Service Financial
                                 Statements for Fiscal Years 2006 and 2005 (02/08/2007); 4 Recommendations

     X-IN-NPS-0005-2007	         Management Letter Concerning Issues Identified During the Audit of the
                                 National Park Service’s Financial Statements for Fiscal Years 2006 and 2005
                                 (03/01/2007); 9 Recommendations

     Office of the Special Trustee for American Indians

     Q-IN-OST-0002-2005	         Independent Auditors’ Report on the Tribal and Other Trust Funds and
                                 Individual Indian Monies Trust Funds Financial Statements for Fiscal Years
                                 2005 and 2004 Managed by the Office of the Special Trustee for American
                                 Indians (11/22/2005); 2 Recommendations

     U.S. Fish and Wildlife Service

     1997-I-1305	                Audit Report on the Automated Law Enforcement System, U.S. Fish and
                                 Wildlife Service (09/30/1997); 1 Recommendation

     X-IN-FWS-0003-2006	         Management Letter Concerning Issues Identified During the Audit of the Fish
                                 and Wildlife Service’s Financial Statements for Fiscal Years 2005 and 2004
                                 (02/27/2006); 2 Recommendations

     U.S. Geological Survey

     X-IN-GSV-0002-2007	         Management Letter Concerning Issues Identified During the Audit of the U.S.
                                 Geological Survey’s Financial Statements for Fiscal Years 2006 and 2005
                                 Financial Statements (03/29/2007); 1 Recommendation




58   Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                         Back To Toc
                                                                                               Appendix Eight



Reports Issued on Information Security
ISD-EV-BLM-0004-2007	         Bureau of Land Management IT Security Evaluation (4/2007)

ISD-EV-BLM-0010-2007	         External Penetration Test of the Bureau of Land Management (4/2007)

ISD-EV-BLM-0011-2007	         Trusted Insider Threat Evaluation of the Bureau of Land Management
                              (4/2007)

ISD-EV-MMS-0006-2007	          Trusted Insider Threat Evaluation of Minerals Management Service (5/2007)

ISD-EV-BOR-0010-2007	          External Penetration Test of Bureau of Reclamation (5/ 2007)

ISD-EV-OSS-009-2007      	    Vulnerability Assessment Technical Report of DOI’s Recreation Information
                              Database (5/2007)

ISD-EV-NBC-0012-2007	         Trusted Insider Threat Evaluation of the National Business Center (6/2007)

ISD-EV-NBC-0013-2007	         National Business Center Oracle Security Evaluation (6/ 2007)

ISD-EV-NBC-0003-2007	         National Business Center IT Security Evaluation (6/2007)

ISD- EV-MOA-0005-2007	         2007 Federal Information Security Management Act Report (9/2007)




                             Semiannual Report to the Congress - April 1, 2007 - September 30, 2007        59
                                                                                         Back To Toc
General Information



      Cross-references to the Inspector General Act
                                                                                                        Page
      Section 4(a)(2)           Review of Legislation and Regulations                                   N/A*

      Section 5(a)(1)           Significant Problems, Abuses, and Deficiencies                           1-41

      Section 5(a)(2)           Recommendations for Corrective Action With Respect to Significant
                                Problems, Abuses, and Deficiencies                                       1-41

      Section 5(a)(3)           Significant Recommendations From Agency’s Previous Reports on           56-58
                                Which Corrective Action Has Not Been Completed

      Section 5(a)(4)           Matters Referred to Prosecutive Authorities and Resulting Convictions      ii

      Section 5(a)(5)           Matters Reported to the Head of the Agency                               N/A

      Section 5(a)(6)           Audit Reports Issued During the Reporting Period                        44-47

      Section 5(a)(7)           Summary of Significant Reports                                           1-41

      Section 5(a)(8)           Statistical Table – Questioned Costs                                      50

      Section 5(a)(9)           Statistical Table – Recommendations That Funds Be Put to Better Use       51

      Section 5(a)(10)          Summary of Audit Reports Issued Before the Commencement of the
                                Reporting Period for Which No Management Decision Has Been Made         54-55

      Section 5(a)(11)          Significant Revised Management Decisions Made During the
                                                                                                          NA
                                Reporting Period

      Section 5(a)(12)          Significant Management Decisions With Which the Inspector General
                                                                                                          NA
                                Is in Disagreement

      Section 5(a)(13)          Information Described Under Section 804(b) of the Federal Financial       59
                                Management Improvement Act of 1996




      *N/A: Not applicable to this reporting period




60    Semiannual Report to the Congress - April 1, 2007 - September 30, 2007
                                                                                          Back To Toc
                                                                       General Information




                                           By Mail
                                   U.S. Department of the Interior
                                    Office of Inspector General
                                          1849 C St. NW
                                        Mail Stop 5341, MIB
                                      Washington, DC 20240




                                                            By Internet
                                                              www.doioig.gov




                                                                 By Phone
                                                                     202.208.4618



By Fax
202.208.4998




               Semiannual Report to the Congress - April 1, 2007 - September 30, 2007    61
                                                                        Back To Toc
